          ., 

                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: A07100057                                                                           Page 1 of 1



                  Our investigation determined that the Subject l fabricated 3 figures and falsified 4 figure
          caption descriptions in his NSF proposal. The Subject's acts were purposeful acts, and a
          significant departure from accepted practices of the research community, and therefore
          constituted research misconduct. NSF took the following actions:

                         •   made a finding of research misconduct against the Subject
                         •   debarred the Subject for two years
                         •   required certifications and assurances for three years after debarment ends
                         •   required that the Subject attend a training course of the responsible conduct of
                             research
                         •   prohibited the Subject from serving as a reviewer for NSF for three years

                 This memo, the attached Report ofInvestigation, and the Deputy Director's and
          Director's decision letters constitute the case closeout. Accordingly, this case is closed.




NSF 010 Form 2 (11/02)
CONFIDENTIAL                                                                            .CONFIDENTIAL




       National Science Foundation
        Office of Inspector General
                               ..




                        Confidential'
                   Report of Investigation 

                  Case Number A071 00057 

                                     9 June 2009



  This Confidential Report of Investigation is the property of the NSF OIG and may be disclosed outside 

       NSF only by OIG under the Freedom ofInfonnation and Privacy Acts. 5 U.S.c. §§ 552, 552a. 


                                                                                    NSF OIGFonn 22b (11/06)
CONFIDENTIAL 	                                                                     CONFIDENTIAL




                                      Executive Summary

OIG's inquiry established that:

   • 	 a figure in the subject's NSF proposal was apparently constructed from several subsidiary
       images, and the composite nature of the image was not noted in the figure caption

The University's investigation established that:

     • 	 two figures (and multiple parts within those figures) in the subject's NSF proposal were
         improperly manipulated; and
     • 	 the subject "mislabeled" figures in his NSF proposal; and
   . • 	 the subject took actions of improper manipulation and "mislabeling" of the figures only
         in the final versions ofthe NSF proposal created just prior to submission; and
     • 	 the subject acted.intentionally.

OIG concludes that:

   • 	 . Act: The subject fabricated 3 figures and falsified 4 figure caption descriptions in his
         NSF proposal.
   • 	 Intent: The subject acted purposefully,
   • 	 Significant Departure: The subject's acts were a significant departure from accepted
         practices ofthe research community.
   • 	 Standard of Proof: A preponderance of the evidence supports a finding that the subject
         committed research misconduct.

OIG recommends that NSF:

   •	         a
       Make finding of research misconduct by the subject; and
   •	  Send a letter of reprimand to the subject; and
   •	  Debar the subject for two years; and
   •	  Require the subject to certify, to the best of his knowledge, to the Associate Inspector
       General for Investigations (AlGI) for three years after debarment ends, thai a proposal or
       report submitted to NSF does not contain fabricated or falsified material; and
   • 	 Require the subject's employer to submit assurances to the AlGI, for three years after
       debarment ends, that, to the best ofhislher knowledge, any proposal or report submitted
       by the subject to NSF does not contain fabricated or falsified material; and
   • 	 Prohibit the subject from serving as a reviewer of NSF proposals for three years after
       debarment ends; and
   • 	 Require the subject to provide certification to the AlGI that he has completed a course in
       ethics training within one year of the finding of research misconduct, and before
       submission of any future proposals to NSF.




                                                   1
CONFIDENTIAL                                                                                        CONFIDENTIAL


                                                      OIG's Inquiry

        We received an allegation that a proposal 1 the subj ect2 submitted to NSF contained
figures that may have been improperly manipUlated. Our inquiry confirmed the apparent
manipUlation of the figures. 3 A photo graphics program shows that the independent color
channels (A. B, and C), in Figure 2 (a color image) of the proposal, were set to their maximum or
minimum values to alter the contrast of the displayed image; this manipulation is hot noted in the
text or the caption. A photo graphics program also showed that Figures 4A, 4B, and 4C in the
proposal were a compilation of several subsidiary images from the subject's research. The
composite nature of the image is not noted in the text or in the figure captions ofthese figures in
the proposal.

       However, it was unclear lithe manipulations (see following images for Figures 2, 4A,
4B, and 4C) were consistent with commUnity standards: 4 We referred an inquiry (Tab 1) to the
University, S which accepted the referraL

Figure 2: Color channels (A, B, C)                    Figure4A:


                                                                           Decomposition of Figure 4A



                           I'~ll                               ..=~'A            r-~---  
 ..
                                                                         '114- . .



                                                                                                         '-
                                                                                 -.
                           EJ                                              98-­
                                                                                                                .
                                                               ,




                                                                   ---:"'1
                                                                           / 

                                                           ,       ~




                           EJ



r_
3
4
    Figure 2 (all parts)
    Several journals (Journal ofCell Biology is an important example) have enunciated standards regarding the
                                other journals and professional societies do not



                                                          2

                                                                                                                  1   ,




CONFIDENTIAL                                                                                       CONFIDENTIAL




Figure4B.                                                                      . r


                               .t
                                                              .   ~   ..
                 Decomposition ofF~ 4B,




Figure4C.

                  Decomposition ofFigure 4C




                                              UniverSity's Investigation

    .      The University accepted our referral, and moved immediately to investigation. Pursuant
. to its policy,6 the University appointed a single individual as the inves.tigator. At the co~clusion
  of the investigation, we rec~ived a,coPY of,its investigation report (Tab 3).
                                    r         •     .'~   -                          ',"   "   •




 6   Tab 2.


                                                                           3
CONFIDENTIAL                                                                               CONFIDENTIAL


        Regarding Figure 2 lA, B, and C): The investigator evaluated the apparent
manipulation of color channel values for Figure 2 in the subject's proposal by examining the
original electronic files obtained from the subject and accompanying laboratory notebook
documentation for these data. The investigator concluded that the color channel values were
manipulated to exaggerate the color contrasts. 7 The investigator also concluded that any
research comparison between panels A, B, and C would be c()mpromised because of the
manipulation ofthe figures. s More significant was the investigator's finding that the images
presented in the subject's proposal are drawn from results using different experimental
conditions, stripping the comparison of panels in the figure of any validity: 9  .


                 A more severe problem was that the experimental conditions were
                 mis-labeled. The experiment was done with appropriate conditions
                 to prepare the cells.. The skeptical interpretation is that the images
                 used for [Figure 2] were selected to support the conClusion, not to
                 show ~e actual experimental result. Neither the text labels on the
                 figure, nor the proposal text, corrects this mis-representation.
                 Thus, this figure presents false data

        Regarding Figure 4 (A, B, and C): The investigator concluded that, individually,
Figure 4A, 4B, and 4C in the proposal is each a composite of three subsidiary images..The
investigator concluded that the Figure 4 manipulations were improper, that the figures were
"mislabeled," and that the molecular weight markers used for the figures were misidentified. 10
From his examination of early versions of the proposal, the investigator concluded: II

                 The initial draft text of the proposal kept this same [correct]
                 interpretation. However, the later drafts shifted suddenly, and in
                 parallel with the new fabricated figures, to describe these images
                 as ifthe bands were o~d thatth.ere was a much
                 bigger shift caused by _ _. There is no honest
                 rationale for changing these interpretations. Curiously, it would
                 not be expected that someone intending to falsify figures would so
                 fully document and explain their results in lab notebooks. Thus, it
                 appears that the experiments were done correctly and initially
               - interpreted correctly, but then in the latter versions of the drafts of
                 text and figures, there was an effort to simplify and clarify the
                 results to mislead the reviewers.

       The investigator found that "mislabeling" ofthe experimental conditions for one of the
images recurred in a manuscript submitted for publication by the subject, but that the concordant




7 Tab 3, page 6.
8 Tab 3, page 7.
9 Tab 3, page 7.
10 Tab 3, pages 8-11.
II Tab 3, pages 10-11.




                                                    4
CONFIDENTIAL                                                                                      CONFIDENTIAL


figures were not manipulated in this manuscript. 12 Accordingly, the investigator found no
evidence of a pattern of fabrication and falsification by the subject. 13

        Subject's Response A: 14 Subject's Response A was directed to the University
investigator in response to the University's charging letter sent to the subject. With regard to
Figure 2 in his NSF proposal, the subject admitted to mislabeling the caption in images
associated with this da~ but asserted that the mislabeling was "accidental.,,15 The subject stated
further that "Due to time constraints at t)::le time of grant subm;ission, the brightness and contrast
[of the fi~e].were adjusted in an attempt to improve image quality and to make images easier'
to read." 6 The subject states that the figure was provided "to show feasibility of the
experimental approach, which unfortunately was not mentioned specifically in the text.,,17
However, the subject also states that the "concb,lsions made from this figure were verified by [his
later] additional experiments.,,18 . Thesubject did not explain the apparent disparity in his
concurrent claims that the figure was offered only as proof of feasibility, but that the conclusions
drawn from the figure were ultimately proved correct by additional experiments.

        In reference to Figure 4, parts A, B, and C, the subject stated: 19

                  The original data showed an observation, which appeared absurd
                  and unbelievable based on the current knowledge in the field.
                  Since the project was fairly young and we were facing time
                  constrain[t]s, ~ was not prepared to' "fight for" this finding, and to
                  make this observation' less striking and less distractive for the
                  reviewers, I excluded irrelevant lanes from the immui1()blot image
                . by cropping and shifting the lanes side-'by-side, and representing
                  them as adjacent lanes, without an appropriate clarification in the
                  text. This was clearly a misjudgment on my part, for which I am
                  truly sorry. Again, the main goal oftheseprelitninary data was to
                  demonstrate feasibility of the experimental approach and not so
                  much to present unorthodoxal [sic] data, which at this time could
                  have been regarded as distractive, and the topic would have been
                  easily disregarded.

       The subject then further addressed Figures 4B and 4C. The subject admitted that Figure
4B is not correctly labeled, and described this as "most likely a typo.,,20 The subject pointed out,

12  Tab 3, page 11. The report does not provide details about the submitted manuscript, but the subject's Response 

A refers to a manuscript submitted to the Journal ofMolecular Biology.            .
J3 The investigator wrote (page 2 of the report, Tab 3): "These image manipUlations appear to be an isolated 

incident, not a pattern of behavior. Review of several manuscripts, proposals, and presentations did not fmd images 

that were manipulated in any obvious way. However, [the subject] declined to state whether prior work was free of 

manipulation." 

14 Tab 4. 

15 Tab 4, page 1. The subject mixed the figure numbers in his proposal with the figure numbers in his manuscript 

submitted for publication in the discussion.                                                  ­
16 Tab 4, page 2.. 

17 Tab 4, page 1. 

18 tab 4, page L 

19 Tab 4, page 2. 





                                                         5
CONFIDENTIAL 	                                                                                  , CONFIDENTIAL


however, that this "typo" supports conclusions that he established as valid in subsequent
experiments. The subject did not explain how such a coincidence could have occurred. The
subject admitted that Figure 4C is "mislabeled.,,21 offered no explanation, and then pointed out
that the "mislabeled" figure again coincidentally supports the correct scientific conclusions as
established by later work. '                          " , ,                           "

        The subject concluded: 22

                 In spite of all my effort, it is sometime impossible for me to recall
                ,specifics of experiments that were carried out weeks or months
                 ~go, or at times when other duties prevented me from exercising
                 close oversight of laboratory activities. Therefore, I urge you to
                 consider this issue in context, and to recognize that mislabeling
                 andlor discrepancies constitute an unfortunate part of the process
                 of data acquisit,ion and storage.


        Basedon a preponderance of the evidence, the University investigator concluded that:

     • 	 the subject improperly manipulated two figures (and multiple parts within those figures)
         in his NS:F proposal;
     • 	 the subject mislabeled figures In his NSF proposal; "
     • 	 the subject's improper manipulation of the figures and mislabeling of the figures occurred
         only in the last veisionsofthe NSF proposal, prepared immediately prior to proposal
         submission; and                         '                              ,
     • 	 the subject acted intentionally.

       , The report stated that the subject's actions were intentional23 and deviated from standard
practice,24 and therefore concluded that the subject committed research misconduct. The
investigator recommended that: 1) the university issue a letter of reprimand to the subject; and 2)
proposal submissions andjoumal submissions of the subject be reviewed by his departmental
chair for a period of two years. 25 The subject resigned from his position before the university
adjudicated the case, and joined a contract research laboratory26 in the same city.




20 Tab 4, page 3.
21 Tab 4, page 3.
22 Tab 4, page 4.
n Tab 3, page ' 	 1.                     " '                                     .
24 Tab 3, page 10; in reference~to the presentation ofnon-adjacentimmunoblot lanes in a figure as iftliey were
side-by-side.
zs Tab 3, page 2.
26 The            took a




                                                         6

CONFIDENTIAL                                                                                         CONFIDENTIAL




                                              OIG's Investigation

                                                      a
        The University investigator received written response from the subject dated March 23,
2008 (Response A).27 The copy of Response A included in the investigation report was unsigned
and was partially illegible~ We therefore asked the University for a copy of the subject's original
signed response. The University responded that 1) the subject did not originally sign his
response; 2) the University had not formally informed the subject that they were conducting an
inquiry linvestigation in response to a referral from our office;28 and '3) the University had not
provided a copy of their investigation report to the subject. The University asked the subject to
                                                                         lo.
sign his first written response; he did and we received a cOP 29 The subject also composed a
second written response (Response B) dated June 26, 2008. 0 The University assured us that the
subject was subsequently provided a copy of the investigation report.

       On receipt of the university report, we resumed our investigation and provided a copy to
the subject asking him to make any comments on the university report. We received a response
(Response C) from the subject dated August 2,2008. 31
                                                                  ,
       We evaluated Response A in the above section on the University investigation, and
evaluate Responses B and C below.                                                        .

       Response B: In Response B, the subject described manipulation of the color images A,
                     32
B, and C in Figure 2: . ... '  . .

                  The 'only way to visualize the small fraction o~
                  associated [signal] was by adjustment of image brightness and
                  contrast. It was clear to us at this time, that as the quality of these
                  images was overall poor, the support they could provide to our
                  hypothesis was not very strong. Furthermore, time limitations
                  during the preparation of the grant proposal prevented us from
                  obtaining better cell immunofluorescent images before the
                  submission deadline.

The subject did not address the lack of candor in the figure caption which did not inform the
reader that the figure contrast had been enhanced, nor the "mislabeling" in the figure that the
university investigator noted in his report. The subject specifically admitted to intentional
manipulation of the brightness and contrast of the Figure: 33



27 Tab 4.                                               ,

28 The referral letter to the University (Tab 1) specifically asks that the subject be soinfonned through receipt of a 

copy of the referral letter.                                         '

29 Tab4. 

30 Tab 5. 

3! Tab 6. 

32 Response B, page 2 (Tab 5). 

33 Tab 5, page 2. 





                                                           7
I   L




        CONFIDENTIAL                                                                                     CONFIDENTIAL



                         Therefore, the adjustment of brightness and contrast ofthe cell
                         fluorescence images in Fig. 2 did not intend to mislead the
                         reviewers of the grant proposal, but rather to bring to their
                         attention the small fraction o~ [name], which could
                         otherwise have easily remained overlooked.
                                                       .                                           .

        The subject describes creation of the composite images in parts A, B, and C of Figure 4 of his
        proposal with language that parallels that he used in Response A. 34 The subject again admitted
        to fabricating an image to show results that he had not actually obtained, and falsifying its
        description in the NSF proposal to provide support for the conclusion that he wished to include
        in his proposal. The subject stated that his subsequent work confinned his manufactured results
        and supported his conclusion.

                Response C: A review ofthe response indicates that it is a restatement of the subject's
        earlier explanations in Response B. Response C brings no further insight into the subject's     .
        actions.                                                                !




                The university investigator examined scientific manuscripts submitted for publication by
        the subject; one such manuscript was apparently submitted to the Journal Of Molecular Biology.
        We therefore examined the policy of that journal with respect to the processing of images. The
        polic~5 states:

                         Image processing. All digitized images must be of high quality and
                         have resolutions of at least 300dpi. Images should be minimally
                         processed (for instance, to add arrows to a micrograph or delete
                         extraneous areas from a gel). It is essential that the final image
                         correctly and accurately represents the original data. The Editors
                         reserve the right to request that the original unprocessed data be
                         supplied as part of their evaluation of submitted manuscripts.

        The subject's manipulations of figures in his NSF proposal would therefore be unacceptable in
        the journal in which he publishes, as the final image in his proposal did not correctly and
        accurately represent his original data.

                                                      OIG's Assessment

               A fmding of research misconduct by NSF requires that 1) there be a significant departure
        from accepted practices of the relevant research community, that 2) the research misconduct be
        committed intentionally, or knowingly, orrecklessly, and that 3) the allegation be proved by a
        preponderance of the evidence;36                                                           . .




        34 The wording in responses A and B describing Figure 4 is not exactly the same. The subject chose slightly 

        different words to offer an identical explanation. 

        35 Available at: http://www.elsevier.oomlwpslfindljoumaldescription.cws_home/622890lauthorinstructions. 

        36 45 C.F.R. §689.2(c). 





                                                                 8
CONFIDENTIAL                                                                                     CONFIDENTIAL




          The subject admitted that he intentionally altered the brightness and contrast in Figure 2
to make a poor image appear to be of higher qUality. In Figure 4, the subject admitted that he
intentionally excluded discordant parts of immunoblot images and created a fabricated and
falsified Figure 4 to support a conclusion that he wished the NSF reviewers of his proposal to
view. The subject claims that the mislabeling of the experimental conditions for the figur~s is a
typographical error, however, the erroneous labels coincidentally support the subject's preferred
conclusions. Those conclusions were not supported until the completion of additional
experiments carried out by the subject after submission of his proposal to NSF.

        The subject falsified the description of Figure 2, and fabricated images 4A, 4B, .and 4C,
and falsified the description of each, in his NSF proposal, and presented to reviewers fictitious
results supposedly obtained in his laboratory. We concur with the University investigator in the
conclusion that the subject's actions are a departure from accepted standards of the research
community. We further conclude that the subject's fabrication of figures and falsification of
figure captions to provide support for a preordained conclusion are actions that are a significant
departure from standards of scholarship, and violate NSF's expectations for scholarship.37.



        The University investigator concluded that the subject's actions were intentional, based
on his conversations with the subject, his examination oflaboratory notebooks and other
electronic records, and the subject's admissions. We concur and also therefore conclude that the
subject's actions were purposeful.

                                              Standard o(Proo(

        The subject admitted to manipulating figures in his proposal, and to the mislabeling of
those figures. The University investigator's direct examination of the laboratory documents and
records confirms these actions. We therefore conclude that the subject's intentional acts
constitute fabrication and falsification, and are established by a preponderance of the evidence.
The subject's actions therefore constitute research misconduct.




37 NSF's Proposal and Award Policies and Procedures Guide, Part I - Proposal Preparation and Submission
Guidelines (NSF 07-140) states (Section D.3.) "NSF expects strict adherence to the rules of proper scholarship and
attribution."                                                    ­




                                                         9
CONFIDENTIAL                                                                        CONFIDENTIAL


                                             OIG's Recommendations

         When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: I) how serious the misconduct was; 2) the degree to which the misconduct was
knowing, intentional, or reckless; 3) whether it was an isolated event or part of a pattern;
4) whether it had.a significant impact on the research record,research subjects,other researchers,
institutions or the public welfare; and 5) other relevant circumstances. 38                  . .

                                                       Seriousness

         The subject intentionally falsified and fabricated figures in his NSF proposal to provide
fictitious support for a conclusion that he saw as central to the competitiveness of his research
proposal. The subject rationalized.his actions by claiming that the reviewers would be
"distracted" by the actual results obtained in his work. Instead he presented NSF with falsified
and fabricated results. The subject's actions cannot be viewed as anything but a serious
misrepresentation to NSF of his research results.

                                         Degree to which the Act was Intentional

        The subject admitted to his intentional falsification and fabrication of figures in his NSF
proposal. The subject took these actions to enhance, in his own view, his competitive chances
for NSF fu.t1ding. The subject explained that he took these actions to avoid distraction of NSF
reviewers with genuine data and results. The subject instead presented figures and figure
captions that supported a conclusion that he believed to be true. The subject could have chosen·
to not include results from incomplete or ambiguous experiments. Instead, the subject chose to
intentionally fabricate them so that his proposal would appear to be supported by his
experimental results. The subject's claim that his conclusions were vindicated by his later
additional experiments is irrelevant to actions he took in preparing his NSF proposal.

                                                         Pattern·

        The University investigator examined other recent publications and presentations of the
subject, and found no substantive evidence of other instances of fabrication and falsification.
The subject has submitted only one proposal to NSF. We therefore concur with the
investigator's conclusion that there is no evidence of a wider pattern of improper actions by the
subject.

                                                Impact on the research record

       The NSF proposal in which the falsification and fabrication occurred was not funded.
We therefore conclude that the impact ofthe subject's actions on the research record is minimal.
The Uni versi~ investigator found no evidence for improper conduct of research in the subj ect' s .
publications? . .                               .


38   45 C.F.R. §689.3(b), 

39    The subject's PI history and biographical sketch are at Tab 7. 



                                                             10
CONFIDENTIAL 	                                                                        CONFIDENTIAL


                               Subject's Response to the Draft Investigation Report

     We sent a draft copy ofthis report of investigation to the subject. We received no
comments from the subject.
 \
                                           Recommendation
                                            .. 	 ,      "




           Based on the evidence in this case, NSF OIG recommends that NSF:

      •	  Make a finding of research misconduct; and
      •	         a
          Send letter of reprimand to the subject;40 and
      •	  Debar the subject for a period of two years;41 and
      •	  Require the subject to certify, to the best of his knowledge, to the Associate Inspector
          General for Investigations (AlGI) for three years after debarment ends, that a proposal or
          report submitted to NSF does not contain fabricated or falsified material;42 and
      • 	 Require the subject's employer to submit assurances to the AlGI for three years after
          debarment ends that, to the best ofhislher knowledge, any proposal or report submitted
          by the subject to NSF does not contain fabricated or falsified material;43 and
      • 	 Prohibit the subject from serving as a reviewer of NSF proposals for three years after
          debarment ends; 44 and       .
      • 	 Require the subject to provide certification to the AlGI that he has completed a course in
          ethics training before submission of any future proposals to NSF. 45 . •                 .
                                                   ..   ,




                                                                                                       ..


40   This is listed as a Group I action, 45 C.F.R. § 689.3(aXl)(i).
41   Debannent is a Group ill action, 45 C.F.R. § 689.3(aX3)(ili).
42   A certification is similar to Group I actions, 45 C.F.R. § 689.3(aXl).
43   This is listed as a Group I action, 45 C.F.R. § 689.3(a)(l)(iii).
44   This is listed as a Group ill action, 45 C.F.R. § 689.3(a)(3Xii).
4S   Ethics training is similar to Group I actions, 45 C.F.R. § 689.3(a)(I).


                                                             11
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230


                                         NOV t 0 l009


    OFFICE 'OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Dr. Ilia Yambo liev




       Re: Notice ofProposed Debarment and Notice ofResearch Misconduct Determination

Dear Dr. Yamboliev:

As documented in the attached investigative report prepared by the National Science
Foundation's ('NSF") Office ofInspector General ("DIG"), you served. as the principal
investigator on a proposal submitted to NSF on July 11, 2007. This proposal contained three
fabricated figures and four falsified figure caption descriptions. In light ofyour misconduct, this
letter serves as formal notice that the National Science Foundation ("NSF') is proposing to debar
you from directly or indirectly obtaining the benefits of Federal grants for a period of two years.
During your period ofdebarment, you will be precluded from receiving Federal [mancial and
non-financial assistance and benefits under non-procurement Federal programs and activities. In
addition, you will be prohibited from receiving any Federal.contracts or approved subcontracts
under the Federal Acquisition Regulations ("FAR"). Lastly, during your debarment period, you
will be barred from having supervisory responsibility, primary management, substantive control
over, or critical influence on, a grant, contract, or cooperative agreement with any agency ofthe
Executive Branch ofthe Federal Government.

In addition to proposing your debarment, I am requiring that you complete an ethics course
covering research misconduct, and certify in writing to the DIG that you have completed such a
course. Furthermore, for three years after the period ofdebarment expires, I am requiring you to
submit certifications and assurances by a responsible official ofyour employer that any
proposals or reports submitted to NSF do not contain plagiarlzed, falsified, or fabricated
material. Lastly, you are barred from serving as a reviewer ofNSF proposals for three years..


Research Misconduct and Sanctions otber than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ..." 45 CFR 689.1 (a). NSF
                                                                                              Page 2
defines '~fabrication" as "making up data or results and recording or reporting them." 45 CFR
689.1(a)(1). NSF defines "falsification" as "manipulating research materials, equipment, or
processes, or changing or omitting data or results'such that the research is not accurately ..
represented in the research record." 45 CFR 689.1(a)(2). A finding ofresearch misconduct
requires that: 	                                                                  .

       (1) 	There be a significant departure from accepted practices of the relevant research
            community; and .
        (2) The research misconduct be coirunitted intentionally, or knowingly, or recklessly;
            and
        (3) The allegation be proven by a preponderance of evidence.

45 CFR689.2(c).

As the ~IG's report demonstrates, you fabricated figures and falsified the text of figure captioris
in your proposal Although you asserted that you took these actions to avoid distracting the
reviewers ofthe proposal, the adjustments you made provided fictitious support fOT a conclusion·
that you viewed as central to the competitiveness of your research proposal. Thus, your cOnduct
unquestionably constitutes fabrication and falsification. I therefore conclude that your actions
meet the applicable definition of"research misconduct" set forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make afindingof
misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
misconduct was conimitted intentionally and purposefully, and constituted a significant
departure from accepted practices ofthe relevant research community. I am, therefore, issuing a
finding of research misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding ofinisconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 689.3(a)(l). Group II actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews ofrequests for funding; and requiring correction to the research record. 45 CFR
689.3(a)(2). Group 1lI actions include suspension or termination of awards; prohI'bitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension from
participation in NSF programs. 45 CFR 689.3(a)(3).

In determining the severity ofthe sanction to impose for research misconduct, I have considered
the seriousness ofthe misconduct; the detern;rination that it was committed intentionally and
purposefully; the determination that it was an isolated incident; and the :thct that your conduct did
                                                                                               Page 3
not have an impact on the published research record. I have also considered other relevant
circumstances. 45 CFR 689.3(b).

I. therefore, take the following actions:

    • 	 By November IS, 2010, you are required to complete an ethics course covering research
        misconduct. You must certify to the OIG that you have done so. Such certification
        should be sent to the OiG, 4201 Wilson Boulevard, Arlington, VA 22230.

    • 	 For tbreeyears from the end of your debannent period, you are required to certifY to NSF
        that any proposals, reports, or papers you submit in connection with NSF-funded research
        do not contain plagiarized, falsified, or fabricated material.

    • 	 For three years from the end of your debannent period, you are required to submit to NSF
        assurances by a responsible official of your employer that any proposals or reports you
        submit in connection with NSFwfunded research do not contain plagiarized, falsified, or
        fabricated material.           .

   • 	 You are prohibited from serving as a reviewer ofNSF proposals until November 15,
       2012.



Debarment

Regulatory Basisfor Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

        (b) 	   Violation ofthe ternls ofa public agreement or transaction so serous as to affect
                the integrity of an agency program, such as

                (1) 	   A willful failure_to perform in accordance with the terms ofone or more
                        public agreements or transactions; or


                (3) 	   A willful violation of a statutory or regulatory provision or requirement
                        applicable to a public agreement or transaction;




        (d) 	   Any other cause of so serious or compelling a nature that it affects your prec::ent
                responsibility.
                                                                                          Page 4
In any debarment action, the government must establish the cause for debarment by a
preponderance ofthe evidence. 2 CPR 180.850. Inthis case, you submitted a proposal to NSP
that contained fabricated and falsified data. Thus, your action supports a cause for debarment
under 2 CFR 180.800(b) and (d).

 \

Length ofDebarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, l;I. period ofdebarment should not
exceed three years but, where circumstances warrant,·a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
and mitigating factors set forth in 2 CPR 180.860, we are proposing debarment for a period of
two years.


Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment


Appeal Procedures for Finding ofResearch Misconduct

Under NSF's regulations, you have 30 days after receipt ofthis letter to submit an appeal ofthis
fmding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become final. For your information, we are
attaching a copy ofthe applicable regulations.


Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revision ofthe recommended disposition. IfNSF does not
receive a response to this notice within the 30-day period, this debarment will become finaL

Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office ofthe General Counsel, 4201 Wilson Boulevard, Room 1265, ArUngton,
Virginia 22230. For your information, we are attaching a copy ofthe Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.
                                                                                        Page 5
Should you have any questions about the foregoing, please contact           Assistant
General Counse~ at (703) 292-




                                                   Sincerely,

                                                  ~ 8.. ~~
                                                   Cora B. Marrett   .
                                                   Acting Deputy Director



. Enclosures:
  Investigative Report
  Nonprocurement Debannent Regulations
  FAR Regulations
  45 CFR Part 689




                                             ,.




                                    ",   .
                             NATIONAL SCIENCE FOUNDATION
                                  4201 WILSON BOULEVARD
                                 ARLINGTON, VIRGINIA 22230



                                      FEB () 2 2010 

 OFFICE OF THE
   DIRECTOR




CERTIFIED MAIL - RETURN RECEIPT REQUESTED

Mr. Lee Hotchkin, Esq.
1025 Ridgeview Drive
Ste.200
Reno, NV 89519

          Re:     Dr. Ilia Yamboliev -- Decision on Appeal ofResearch Misconduct
  ----- - --- - - Determination--

Dear Mr. Hotchkin:
On November 10, 2009, Dr. Cora Marrett, the National Science Foundation's ("NSF")
Acting Deputy Director, issued a Notice of Proposed Debarment and Notice of Research
MiscopductDetermination to your client, Dr. Ilia Yamboliev. This Notice was issued
based on NSF's finding that Dr. Yamboliev submitted a proposal to NSF that contained
falsified and fabricated material. In this Notice, NSF: (1) proposed to debar him for two
years; (2) required, for three years from the end of his debarment period, that he submit
certifications and assurances in connection with any proposal or report he submits to
NSF; (3) prohibited him from serving as a reviewer of NSF proposals until November 15,
2012; and (4) mandated that he complete an ethics training course on research
misconduct by November 15,2010. On December 10, 2009, you appealed NSF's finding
of research misconduct and responded to NSF's proposal to debar Dr. Yamboliev. This
letter constitutes NSF's decision on your appeal of NSF's finding of research
misconduct I

 Your appeal is denied. Notwithstanding your allegation to the contrary, NSF's research
 misconduct regulations provide Dr. Yamboliev with a right to appeal the actions taken
 against him - a right that you have exercised on his behalf. Thus, he has not been denied
 due process. In addition, the administrative actions that NSF has imposed on Dr.
.Yamboliev are commensurate with his misconduct, as the falsification and fabrication of
 data are extremely serious offenses. Lastly, you have offered no support for your

1 A decision on Dr. Yamboliev's debarment will be issued by Cora B. Marrett, NSF's Acting

Deputy Director, under separate cover.
<.




     assertion that NSF is precluded from taking administrative action against Dr. Yamboliev
     unless there is an active award.

     If you have any questions about the foregoing, please call Lawrence Rudolph, General
     Counsel, at (703) 292-8060.



                                                        Sincerely,




                                                        ~\~.~.
                                                        Director


     cc:    Dr. Ilia Yamboliev
                                    NATIONAL SCIENCE FOUNDATION
                                         4201 WILSON BOULEVARD
                                        ARLINGTON, VIRGINIA 22230




                                            FEB 0 2 lOlD 

     OFFICE OF THE
    DEPUTY DIRECTOR




VIA CERTIFIED MAILfRETURN RECEIPT REQUESTED

Lee T. Hotchkin, Esq.
1025 Ridgeview Drive
Ste.200
Reno,NV 89519

       Re: Dr. Ilia Yamboliev - Notice ofDebarment


Dear Mr. Hotchkin:

On November 10,2009, the National Science Foundation ("NSF'') sent your client, Dr. Ilia
Yamboliev, a Notice of Proposed Debarment and Notice of Research Misconduct Detennination,
in which NSF proposed to debar him from directly or indirectly obtaining the benefits of Federal
grants for a period of two years. This Notice .also informed Dr. Yamboliev that NSF was taking
other administrative actions against him in accordance with NSF's research misconduct
regulations. The Notice sets forth in detail the circumstances giving rise to NSF's decision to
propose his debarment and take these additional administrative actions. Specifically, NSF took
these actions because Dr. Yamboliev submitted a proposal to NSF containing three fabricated
figures and four falsified figure caption descriptions. In the Notice, NSF provided Dr.
Yamboliev with an opportunity to respond to the proposed debarment, and to appeal the other
administrative actions.'

On December 10, 2009, you filed a timely response to the Notice on Dr. Yamboliev's behalf. In
this response, you urged NSF not to debar him,and to rescind the other administrative actions,
for several reasons including: (1) NSF denied Dr. Yamboliev due process; (2) the sanctions
imposed by NSF in this case were not commensurate with the misconduct that he committed;
and (3) NSF lacked the regulatory authority to propose debarment and take other administrative
actions against him because there was no active award. As detailed below, I am not persuaded
by any of your arguments.



I In accordance with applicable regulations and a~ency practice, I am responsible for issuing a final
decision on Dr. Yamboliev's debarment. Dr. Yamboliev's appeal of the other administrative actions
taken against him will be adjudicated by the NSF Director, Dr. Arden Bement, Jr., under separate cover.
                                                                                                     2

 At the outset, I note that, in his Dec~mber 10 respop.se, Dr..yamboliev does not challenge the"
 factual findings made by NSF with respect to Dr. Yamboliev'smisconduct. Moreover, Dr.
 Yamboliev does not prov,ide NSF with any additional evidence to consider on his behalf. Thus"
 there is no dispute that Dr. Yamboliev engaged in research misconduct.

  Your argument that Dr. Yamboliev has been denied due process 'is not supp~rted by the facts. ,
  Pursuant to the government-wide debarmentregiIlations, an individual whose debarment has
. been proposed by a Federal agency has the right to submit infonnation and argument in
  opposition to the debarment with said agency before a final decision,on debarmeIl;t is made.Dr.
  Yamboliev has been provided with this opportunity to be heard, as evidenced by your December
  10 correspondence. Although Dr. Yamboliev has requested an in-person evidentiary hearing,
  NSF is under no obligation to grant him one. An in-person hearing in this case, is unnecessary
  because Dr. Yamboliev has not presented any evidence or argument to suggest that NSF's
  factual findings were erroneous.
                     ,      J                                                        •

Second, Dr. Yamboliev asserts that del;>annent is too severe, based on the nature of the         ,
misconduct in which he engaged. I disagree. Dr. Yamboliev's actions are extremely serious"
because they strike at the heart of research integrity. He intentionally falsified and fabricated
figures in his NSF proposal to provide fictitious support for aconclusionthat he viewed as
central to the competitiveness of his research proposaL Through his conduct, Dr. Yarnboliev
displayed a blatant disregard for the accurate reporting of research results. As mentioned
previously, Dr. Yamboliev did not challenge the facts developed in DIG's investigation.
Therefore, I believe the debarment proposed by NSF is commensurate with the misconduct
committed by Dr. Yamboliev.          .

Lastly, Dr. Yamboliev opines that NSF does not have the legal authority to debar Dr. YamboIiev
because NSF did not fund Dr. Yamboliev's proposal, and an active award is aprerequisite for
debarring an individual. There is simply no support for this conclusion. Debarment may be
imposed for "any ... cause of so serious or compelling a nature that it affects your present
responsibility." 2 CFR 180.800(d). The fact that Dr. Yamboliev's proposal was not funded by'
NSF neither renders his conduct acceptable, nor excuses his misconduct in any way. In short,
your arguments have not convinced me to amenc;i the proposal. Thus, I am issuing this Notice of
Debarment.                                                                   '

Accordingly, Dr. Yamboliev is debarred until November 10,2011. Debarment precludes him 

from receiving Federal financial and non-financial assistance and benefits under non- ' 

procurement Federalprograms and activities unless an agency head orauthorized designee 

makes a detennination to grant an exception in accordance with 2 CFR180.135. Non­

procurement transactions include grants, cooperative agreements, scholarships, fellowships, 

contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for specified use, 

and donation agreements. 


In addition, Dr. Yamboliev is prohibited from receiving Federal contracts or approved 

subcontracts under the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the 

                                                                                            -   3 ­

period ofthis debarment. 2 CFR 180.925. During the debarment period, he may not have
supervisory responsibility, primary management, sUbstantive control over, or critical influence
on, a grant, contract, or cooperat>ive agreement with any agency of the Executive Branch of the
Federal Government.                                               '
                                                                      .
Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
decision, in writing,to the Director of NSF. 45 CFR 689.l0(a). Any appeal should be addressed
to the Director at:

              National Science FoUIidation 

              4201 WilSon Boulevard 

              Arlington, Virginia 22230 

                   .   (




Ifwe do not receive your appeal within the 30-day period, this decision will become final.      .
If you have any questions regarding the foregoing, please contact               Assistant General
Counsel, at' (703) 292-8060. .                .




                                                         Sincerely,



                                                         Cora B. Marrett
                                                         Acting Deputy Director




cc:    Dr. Ilia Yamb6liev




                                                 v....   :.,
